                                 CLOSEOUT FOR M90030012
        On                  Dr.                    a program director in the Division-o
                      within the Directorate fo                                                  informed
O    i      t  y    -                          (    t    h    e    g      a     t         i    o     n into
allegations of misconduct in science against Dr. t              h            e subject and a faculty
member in that institution's ~ e p a r t m e n f .              The program officer said that the
subject, who was a co-PI on NSF award                             entitled -'
,                           "had a professional disagreement                of his- - -two
                                                                                         -   co-PISon the
grant, D-r.               complainant 1 and an employee of&                                 ( t h e
Firm). The disagreement was one of the sources for the allegations the institution was
investigating.

        OIG reviewed the subject's relevant NSF grants and proposals, as well as information
provided by the institution, by Dr.-complainant                 2 and president of the Firm, and
by D-.r                   complainant 3 and chairman of the subject's department. From this
information OIG learned that the institution had evaluated 18 allegations concerning questionable
practices by the subject.

         016 determined that one of the sources of these allegations was the content and
authorship disagreements that arose because the subject prolifically drafted manuscripts and
assigned authorship after receiving, at best, only cursory approval from other involved
professionals. Another source of these allegations was the alleged errors in an electronicjournal
owned, edited, and published by the subject. A third source of these allegations was the
professional animosity between the subject and the three complainants. Complainant 2 and the
subject had a public and professional disagreement that immediately preceded the events in this
case. Shortly thereafter, complainant 1 and 2 attempted to remove the subject as a co-PI from
the NSF grant which identified the F h as the grantee. Finally complainant 3, a close associate
of the frrst two complainants, brought allegations against the subject to the attention of
institutional officials.

        The stated goal of the first two complainants' efforts was to have the subject removed
from the NSF grant. However, the prognim officer terminated the NSF award because he
believed complainant 1's and complainant 2's disagreements with the subject were such that no
work could be accomplished under the award. In response to the complainants' appeals to NSF,
the termination was converted into a suspension that remained in effect until the disputes were
resolved.




                                               Page 1 of 5
                              CLOSEOUT FOR M90030012

        Of the 18 allegations, three concerned the subject's alleged failure to provide appropriate
citations or acknowledgments in articles he had published. OIG determined that one of these
allegations was a dispute between the subject and a PI working in a related area over whether
the PI should have been acknowledged for prior work in a paper by the subject. 016
determined that this dispute was not a misconduct in science issue. The two remaining
allegations were based on the subject's and complainant 3's different perceptions of various
individuals' contributions totthe papers. OIG determined that the subject's practices were less
than ideal, but did not rise to the level of misconduct in science.

         Thee of the allegations concerned the subject's alleged failure to obtain permission to
republish data without, in one instance, the original publisher's (the Firm's) permission, or, in
two instances, the permission of his collaborator or research assistants. 016 learned that, in the
f ~ s instance,
       t        the subject did have prior written permission from the original author and the
Firm,and thus the allegation had no substance. With regard to the remaining allegations, OIG
learned that the subject had republished data developed under the subject's and complainant 3's
NSF grant in the subject's electronic journal (see below). In the latter two allegations, the
complainant alleged that the subject had not received permission to repubfish the data, but, in
one instance, later acknowledged that he bad given permission. In the second instance, it
appeared that the dispute arose because the subject interpreted an oral conversation about
republishing preliminary data as part of a larger compendium of data he had solely compiled as
permission to do so, The subject provided the original co-authors with credit for the data, but,
because of complainant's concerns about the accuracy of the data, he notified the journal
subscribers of their preliminary character, noted that they were being withdrawn, and requested
that subscribers not use the withdrawn data. OIG concluded that the subject's actions were
questionable but that they did not rise to the level of misconduct in science.

        Two of the allegations concerned the subject's practices when publishing data in his
electronic journal. OIG learned that the electronic journal "volumes" consisted of diskettes that
contained compendia of data which were periodically mailed to subscribers. It was the subject's
intention that the data in any one "volume" could be.updated and a replacement diskette issued
to subscribers. In the first allegation, OIG learned that the subject had informed three
individuals (including complainants 1 and 2) that, three years earlier, he had "published" a set
of data in his journal that incorrectly named them as authors. He said that this mistake occurred
when a draft diskette identifying the original authors of the data, rather than the final version
of the diskette, was mailed to subscribers. After apologizing to the individuals involved, he
mailed the subscribers a corrected replacement diskette. In the second allegation, the subject
published data in his journal and named two individuals (one of whom was complainant 3) as
authors. It was alleged that, while both individuals had worked on ci-eating the data, neither
individual had given the subject written permission to name them as authors nor had the subject
been given permission to name himself as an author. The subject showed that authorship had
been discussed with each individual but said he had not obtained their written permission to use

                                           Page 2 of 5                                    M90-12
                              CLOSEOUT FOR M90030012

their names as authors on the data published in his journd. He said that he did not think it was
necessary to secure such permission from close coUaborators and described his contributions in
developing the data as sufficient to w m n t his own authorship. 016 concluded that the
subject's practice of providing "guest authorship" was questionable but not misconduct in science
and far less serious than publishing collaboratively developed data without acknowledging his
co-workers would be. OIG learned that the subject's informal management of his journal, while
initially adequate, was now inappropriate because the journal's increased stature and readership
required more formal management, such as permission to publish documentation. Though the
investigation process at the institution, the subject obtained institutional sponsorship for the
journal, appointed a new editor, and formalized its rules for publicatkn. OIG determined that
these actions satisfactorily addressed these allegations,

       Four of the allegations concerned the subject's practice of .providing people with
authorship on manuscripts when those people had not agreed to be authors. Complainant 3
alleged that, on at least four occasions, the subject had drafted manuscripts and provided various
collaborators with authorship and that the collaborators disagreed either with being provided
authorship or with the authorship the subject had provided to other individuals. OPG concluded
that, while the subject's practice might not be the most desirable, the inappropriate provision of
people with authorship on manuscripts was easily rectified in the subsequent version of the
manuscript. OIG learned that in one instance the subject had modified the contested authorship
prior to the receipt of the allegation, and in response to the remaining three allegations, he
modified the authorship on the unpublished manuscripts to accommodate the complainant's
concerns.

        Complainant 3 made three allegations about the subject's behavior on their joint PJSF
grant. The complainant alleged that, without the complainant's permission, the subject used a
code book compiled under their NSF grant and entered their NSP project room, and, further,
that he had failed to participate in the work on their NSF grants. 016 determined that the
subject and complainant, as co-PIS, had equivalent rights to the code book. Hence, the subject
did not have to secure the complainant's prior pemission~touse it noi did the subject have to
secure the complainant's permission to enter their project room. OIG was concerned to learn
that the complainant had changed the locks on the room and had not provided the subject with
a key, effectively prohibiting the subject's access to the project materials. The subject produced
ample evidence while responding to the other allegations in this case to show that he was
actively working on the grants. OIG concluded that these allegations demonstrate the poor
working relationship between these two PIS, and determined that the institution, through the
investigation process had effectively mediated this dispute. The project was divided into
separate, mutually agreed upon, research areas which limited the PIS' need to interact with each
other.



                                          Page 3 of 5
                              CLOSEOUT FOR M90030012

        Finally, complainant 3 made thee allegations about inaccuracies in various materials
submitted by the subject. The subject was alleged to have frled an inaccurate NSF progress
report; however, OIG could find no evidence to support this allegation. The subject was alleged
to have submitted an inaccurate curriculum vitae to complainant 3, as &is co-PI and department
chairman. OIG determined that this was a draft CV submitted for corrections and that it did not
appear in NSF materials. Hence, it was not an issue relevant to 016's assessment of this case.
In the second allegation, the subject was alleged to have made an indiscreet statement to an
informal working group of colleagues in an informal newsletter. The subject's statement
identified the country in which another researcher's project was to take place. The complainant
viewed this statement as jeopardizing the project because obtaining research clearances was a
politically sensitive issue and was handled confidentially. OIG concluded that, while the
subject's comment could have been more discreet, it did not, in-its limited release to close
colleagues, damage the researcher's project. In the third allegation, the complainant alleged that
the subject had made inaccurate statements about other department faculty members'
participation in his declined NSF proposal. OIG determined that while these statements were
not completely accurate, they did not influence NSF9s assessment of the proposed project and
they did not rise to the level of,misconduct in science,

        OIG concluded that many of the subject's practices that were described by these
allegations were not desirable and that they showed a pattern of questionable judgement.
Because of the subject's serious professional and personal disputes with the three complainants,
it appeared that the complainants were less forgiving of his questionable practices than they
otherwise might have been. Rather than resolving their grievances, such as authorship
assignments on manuscripts, directly with the subject, they pursued formal allegations against
him. Similar conclusions were reached by the institution's investigating committee. In a letter
of warning the institution told the subject that

               . . . While the investigation of the matter does not conclude that you have
       deliberately acted to circumvent the normal standards of conduct expected of
       academicians involved in research and publication, the review of this issue and
       your involvement in the ensuing events have caused us significant concern. . . .      %




               ...     Many of the allegations have arisen because you used verbal
       permission and commentary to validate your work or the work of others, in the
       collaboration and publication of research. This method of operation, as you have
       agreed, needs to be corrected immediately and we understand that you have taken
       steps to do so.

             . . . m e are giving you a warning of record that the behavior outlined
       above must cease. A repetition of the specific charges, or any other allegations


                                          Page 4 of 5                                    M90- f 2
                              CLOSEOUT FOR M90030012

       of academic impropriety, will be remanded to the appropriate committee in the
       Academic Senate . . . [and] may result in disciplinary action. . . .

        OIG concluded that the changes in the administration of the subject's journal and the
institution's letter of warning to the subject satisfactorily resolved the allegations and there was
no need for OIG to pursue them further.

       OIG closed this inquiry and no further action will be taken in this case.


cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                           Page 5 of 5
